HHS/OIG, Audit -"Review of Medicare Payments for Beneficiaries With Institutional Status,"(A-05-02-00078)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries With Institutional Status," (A-05-02-00078)
February 24, 2004
Complete
Text of Report is available in PDF format (425 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Medicare payments to managed care organizations
(MCOs) were appropriate for beneficiaries reported as institutionalized.  Medicare pays a higher monthly rate to MCOs
for such beneficiaries.  Based on a statistically valid sample of 8 of 79 MCOs, we found the MCOs incorrectly claimed
801 beneficiaries as institutionalized from January 1998 through December 2000.  We estimate overpayments totaled
about $9.5 million.  The major cause of the overpayments was that the MCOs did not adequately verify that the beneficiaries
had met residency requirements before claiming them as institutionalized.  We recommended financial adjustments and
that the Centers for Medicare and Medicaid Services improve oversight procedures to better identify MCOs that inappropriately
claim beneficiaries as institutionalized.